No. _______________
SUPREME COURT OF THE UNITED STATES

JERMAINE TYRONE JONES,

PETITIONER,

vs.

UNITED STATES OF AMERICA,

RESPONDENT.

____________________________________________________
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
______________________________________________________

PETITION FOR A WRIT OF CERTIORARI

Frank W. Heft, Jr.
Counsel of Record
Scott T. Wendelsdorf
Office of the Federal Defender
200 Theatre Building
629 Fourth Avenue
Louisville, Kentucky 40202
(502) 584-0525
Frank_Heft@fd.org
Counsel for Petitioner

QUESTION PRESENTED
In United States v. Hensley, 469 U.S. 221 (1985), the Court held that an
investigative stop can be based on reasonable suspicion of a completed felony.
This case presents the question:
Is reasonable suspicion of a completed misdemeanor sufficient
under the Fourth Amendment to justify an investigatory stop of a
vehicle when there is no evidence that any occupant of the vehicle was
then committing or was about to commit a crime.

i

PARTIES TO THE PROCEEDING
The only parties to this proceeding are those listed in the caption of the case.

RELATED PROCEEDING
This case arises from United States v. Jermaine Tyrone Jones, No. 5:17-CR00039 – TBR which is pending in the United States District Court for the Western
District of Kentucky.

ii

Table of Contents
Question Presented

i

Parties to the Proceeding

ii

Related Proceeding

ii

Table of Contents

iii

Table of Authorities
Opinions Below

1

Jurisdiction

2

Constitutional Provision Involved

2

Statement of the Case

2

Reasons for Granting the Petition

10

Reasonable suspicion of a completed misdemeanor is not sufficient under
the Fourth Amendment to justify an investigatory stop of a vehicle when
there is no evidence that any occupant of the vehicle was then committing
or was about to commit a crime.

10

Conclusion

26

iii

Table of Authorities
Cases
Alabama v. White, 496 U.S. 325 (1990)

11

Gaddis v. Redford Twp., 364 F.3d 763 (6th Cir. 2004)
Mathis v. United States, 136 S.Ct. 2243 (2016)

12, 13
23

Navarette v. California, 572 U.S. 393 (2014)

10, 11

Shepard v. United States, 544 U.S. 13 (2005)

23

Taylor v. United States, 495 U.S. 575 (1990)

23

Terry v. Ohio, 392 U.S. 1 (1968)

passim

United States v. Cortez, 449 U.S. 411 (1981)

10, 11, 12

United States v. Hensley, 469 U.S. 221 (1985)

passim

United States v. Hughes, 517 F.3d 1013 (8th Cir. 2008)

passim

United States v. Grigg, 498 F.3d 1070 (9th Cir. 2007)

passim

United States v. Jermaine Jones, No. 5:17CR-00039-TBR
United States v. Jones, 953 F.3d 433 (6th Cir. 2020)

ii
passim

United States v. Jones, 2019 WL 2077778, at *1 (W.D.Ky. 2019)

1

United States v. Jones, 2018 WL 5796149 (W.D.Ky. 2018)

1

United States v. Moran, 503 F.3d 1135 (10th Cir. 2007)

passim

United States v. Place, 462 U.S. 696 (1983)

12

United States v. Roberts, 986 F.2d 1026 (6th Cir. 1993)

13

iv

United States v. Simpson, 520 F.3d 531 (6th Cir. 2008)

12

United States v. Sokolow, 490 U.S. 1 (1989)

10

Constitutional Provisions
United States Constitution, Fourth Amendment

passim

Federal Statutes
18 U.S.C. §16

23

18 U.S.C. §922(g)(1)

2

18 U.S.C. §924(a)(2)

2

18 U.S.C. §924(e)(2)(B)

23

18 U.S.C. §3231

2

28 U.S.C. §1254(1)

2

State Statutes
Kentucky Revised Statute [KRS §] 218A.1414(1)

22

Kentucky Revised Statute [KRS §] 218A.1414(2)(a)(1)

22

Kentucky Revised Statute [KRS §] 218A.1414(b)(1)

22

Kentucky Revised Statute [KRS §] 431.005

14

Kentucky Revised Statute [KRS §] 431.005(1)(d)

14

Kentucky Revised Statute [KRS §] 431.005(2)(a)

14, 15

Kentucky Revised Statute [KRS §] 431.060(2)

14

Kentucky Revised Statute [KRS §] 506.010(4)(d)

22

v

Kentucky Revised Statute [KRS §] 506.010(4)(e)

22

Kentucky Revised Statute [KRS §] 508.010(1)(a)

13

Kentucky Revised Statute [KRS §] 508.010(1)(b)

13

Kentucky Revised Statute [KRS §] 508.020(1)(a)

13

Kentucky Revised Statute [KRS §] 508.020(1)(b)

13

Kentucky Revised Statute [KRS §] 508.020(1)(c)

13

Kentucky Revised Statute [KRS §] 508.025(1)(a)(1)

13

Kentucky Revised Statute [KRS §] 508.025(1)(a)(2)

13

Kentucky Revised Statute [KRS §] 508.025(1)(a)(4)

13

Kentucky Revised Statute [KRS §] 508.025(1)(a)(5)

13

Kentucky Revised Statute [KRS §] 508.030

6

Kentucky Revised Statute [KRS §] 508.030(1)(a)

14, 23

Kentucky Revised Statute [KRS §] 508.030(1)(b)

14

Kentucky Revised Statute [KRS §] 508.080(2)

22

Kentucky Revised Statute [KRS §] 508.080(13)

23

Kentucky Revised Statute [KRS §] 508.120(2)

22

Kentucky Revised Statute [KRS §] 510.120(3)

22

Kentucky Revised Statute [KRS §] 510.148(2)(a)

22

Kentucky Revised Statute [KRS §] 510.148(2)(b)

22

Kentucky Revised Statute [KRS §] 510.150.150(2)

22

vi

Kentucky Revised Statute [KRS §] 511.060

16

Kentucky Revised Statute [KRS §] 530.050

16

vii

PETITION FOR A WRIT OF CERTIORARI
In United States v. Hensley, 469 U.S. 221 (1985), the Court upheld an
investigative stop based on reasonable suspicion of a completed felony. This case
provides the Court with an opportunity to decide whether the Fourth Amendment
permits an investigative stop based on reasonable suspicion of a completed
misdemeanor. Accordingly, petitioner, Jermaine Tyrone Jones, respectfully petitions
for a writ of certiorari to review the judgment of the United States Court of Appeals
for the Sixth Circuit.
OPINIONS BELOW
The Sixth Circuit’s opinion is reproduced in the Appendix (App.) at pp. 1-8.
See United States v. Jones, 953 F.3d 433 (6th Cir. 2020).
The unpublished Memorandum Opinion and Order of the United States
District Court for the Western District of Kentucky denying the United States’
Motion to Reconsider is reproduced at App. 9-13. See United States v. Jones, 2019
WL 2077778, at *1 (W.D.Ky. 2019).
The unpublished Memorandum Opinion and Order of the United States
District Court for the Western District of Kentucky granting petitioner’s motion to
suppress evidence is reproduced at App. 17-25. See United States v. Jones, 2018 WL
5796149 (W.D.Ky. 2018).

1

JURISDICTION
The district court had original jurisdiction under 18 U.S.C. §3231. The Sixth
Circuit issued its opinion on March 23, 2020. The jurisdiction of this Court is
invoked under 28 U.S.C. §1254(1). This petition is timely filed in conformance with
the Court’s Miscellaneous Order issued on March 19, 2020. See 589 U.S. _____.
CONSTITUTIONAL PROVISION INVOLVED
The Fourth Amendment to the United States Constitution provides:
The right of the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches and seizures, shall
not be violated, and no Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly describing the place
to be searched, and the persons or things to be seized.
STATEMENT OF THE CASE
This case stems from an investigatory traffic stop which resulted in petitioner,
Jermaine Jones, being charged with felon in possession of a firearm in violation of
18 U.S.C. §922(g)(1) and §924(a)(2). (Record (R.) 1, Indictment, Page ID# 1).
Petitioner moved to suppress evidence of the gun on the ground that the stop
of the vehicle in which he was a passenger was not made with probable cause or
reasonable suspicion to believe that he had been or was engaged in or about to be
engaged in criminal activity. (R.45, Motion to Suppress, Page ID# 44-45). The
following evidence was heard during the suppression hearing.

2

On August 30, 2017, Officer Andrew Parrish, a police officer in Paducah,
Kentucky, responded to a call about a disturbance at Ms. Tierica McKinney’s
residence. She told Officer Parrish that when she got home from work her exboyfriend, petitioner Jermaine Jones, was there and she tried to get him to leave.
Petitioner did not live at her home but had some possessions there. (Record (R.) 30,
Transcript of Suppression Hearing (TR Hrng.), Page ID# 68-69).1 Petitioner left Ms.
McKinney’s house before Officer Parrish arrived. Id. at 68-69, 73. She said
petitioner was in a white Suburban vehicle driven by William Snipes. Id. at 69.
Ms. McKinney told Officer Parrish that petitioner poured laundry detergent
all over her couch and threw a soda can and a plastic bottle of dishwashing liquid at
her. The soda can hit her vehicle but she was hit in the back by the plastic bottle. She
complained of pain and twice lifted her shirt to show Officer Parrish where the bottle
struck her. (R.30, TR Hrng., Page ID# 68-70, 73). Officer Parrish did not see any
indication of physical injury, bruising, or other trauma and he did not call an
ambulance or have Ms. McKinney medically examined. Id. at 81-82. Ms. McKinney
was concerned that petitioner would return to her home. (R.32, DEX 2, Body Camera
1236 at 00:04:40-50, 00:10:00-15, 00:13:35-40).2

1

The transcript of the suppression hearing is available on the district court’s
electronic record – No. 5:17-cr-39. See R.30, Page ID# 65-91.
2
DVDs made from the responding officers’ body cameras were introduced into
evidence as Defense Exhibits (DEX) 1 and 2. (R.30, TR Hrng. Page ID# 84).
3

Officer Parrish believed Ms. McKinney’s statements were corroborated by the
laundry soap that was poured on her couch, and a soda can and a bottle of
dishwashing liquid that were found outside the house. (R.30, TR. Hrng., Page ID#
73, 80-81). The bottle was not seized as evidence although Officer Parrish thought
it was used in the alleged assault. Id. at 81. In compliance with departmental policy,
Officer Parrish filled out a form used in domestic violence matters to put victims in
touch with a social service agency. Id. at 70, 75-76. He told Ms. McKinney about
the formal process to evict him. (R.30, TR. Hrng., Page ID# 84). They also discussed
pressing charges and getting an Emergency Protective Order (EPO). Id. at 84-85;
R.32, DEX 2, Body Camera 1236, 00:14:30-00:15:40, 00:18:14-50, 00:25:07-35,
00:26:19-38.
As Officer Parrish prepared to leave Ms. McKinney’s house in his patrol car,
he saw a white Chevy Suburban with two, black male occupants. (R.30, TR. Hrng.,
Page ID# at 71). He “got behind that vehicle and initiated a traffic stop to further
investigate the allegations made by Ms. McKinney.” Id. (Emphasis added). Officer
Parrish approached the passenger’s side of the vehicle and said, “Hey Jermaine,
how’s it going man?” Petitioner responded, “Alright.” Officer Parrish asked him,
“What happened earlier?” Petitioner said he and Ms. McKinney had a back-andforth verbal argument. Id. at 71-72; R.32, DEX 2, Body Camera 1308 at
00:42:00:01:50, 00:02:40-00:03:30).
4

Officer Parrish told petitioner to get out of the vehicle so he could ask more
questions. When petitioner did so, they went to Parrish’s patrol car where Parrish
patted him down but found nothing. Officer Parish further questioned petitioner and
arrested him for fourth degree assault – a misdemeanor. (R.32, DEX 2, Body Camera
1308 at 00:03:30-00:05:02, 00:07:25-50. Petitioner was handcuffed and Officer
Parrish patted him down a second time and again found nothing. Id. at 00:07:25-50,
00:08:24-10:31; App. 3.
Officer Parrish said the arrest was based on the dispatch to Ms. McKinney’s
residence, her statement about petitioner, and the physical pain in her back. (R.30,
TR Hrng., Page ID# 71-72). He stated he would not have made a traffic stop if he
did not believe a crime occurred at Ms. McKinney’s residence “not long before” the
stop. Id. at 76. He believed he had probable cause for the arrest. Id. at 76-77.
Officer Parrish acknowledged that he made the stop to further investigate Ms.
McKinney’s allegations. Based on those allegations, he had already made up his
mind to arrest petitioner when he was stopped and that was true when he began to
question him. (R.30, TR Hrng., Page ID# 77). In explaining why he thought it
necessary to “further investigate,” if he had already made up his mind that there was
probable cause to arrest petitioner, Officer Parrish said he wanted “to afford [Mr.
Jones] an opportunity to speak” so he questioned him about what happened at Ms.
McKinney’s house. Officer Parrish said although petitioner was not free to leave the
5

traffic stop, he did not advise him of his Miranda rights when he began to question
him. Id. at 77-79.
After being placed in the patrol car, petitioner told the officers that the
handcuffs were too tight. When he was removed from the vehicle, Officer Parrish
saw a handgun in the back of the patrol car. (R.32, DEX 2, Body Camera 1308 at
14:20-16:35; App. 3).
The district court granted the suppression motion. (App. 17-25). The first
issue was whether the investigative stop was lawful and the second issue was
whether Officer Parrish had probable cause to arrest petitioner without a warrant.
(App. 21-22). The court found it significant that Officer Parrish testified that he
“stopped the Suburban for no other reason than ‘to further investigate the allegations
made by Ms. McKinney.’” Id. at 21. See also R.30, TR Hrng. Page ID# 71. That
testimony made it clear that Officer Parrish “stopped Jones because he suspected
him of fourth-degree assault in violation of Kentucky Revised Statute [KRS §]
508.030.” (App. 24). The court concluded that reasonable suspicion of a completed
misdemeanor, like fourth degree assault, is not sufficient under the Fourth
Amendment to justify an investigatory stop. Id. at 22.
The district court noted that United States v. Hensley, 469 U.S. 221 (1985) “is
restricted to felonies” and does not extend to misdemeanors.” (App. 22). Based on
that holding and relying on several Sixth Circuit cases, the district court concluded
6

that “the Sixth Circuit is more likely to find an investigative stop based on a
completed misdemeanor unreasonable under the Fourth Amendment.” Id. at 24.3
Accordingly, the gun was suppressed as evidence. Id.
The government asked the district court to reconsider whether the stop was a
part of an investigation into an ongoing misdemeanor offense, and, if so, whether
the stop was supported by reasonable suspicion. (App. 14).
The district court found that Officer Parrish did not stop petitioner to
investigate an ongoing crime. (App. 11). Officer Parrish’s testimony showed that he
“pulled Jones over to investigate McKinney’s allegations of the completed domestic
violence that had occurred earlier that day[.]” Id. at 12. The court cited the following
colloquy between the prosecutor and Officer Parrish to support its finding:
Q. Officer Parrish, to sum this up, at the time that you initiated the traffic
stop on the vehicle that was operated by Mr. Snipes and Mr. Jones was
the passenger, did you believe that a crime had just taken place not
long before at Ms. McKinney’s residence?
A. Yes, sir. If not, I would not have initiated that traffic stop.
Q. All right. And prior to you making the decision to place Mr. Jones under
arrest for assault fourth degree, domestic violence, did you believe that
you had probable cause to prove that Mr. Jones had committed that
crime?
A. Again, yes, sir. If I did not believe that, I would not have effected that
arrest.

3

In light of that ruling, the district court did not address the issue of whether there
was probable cause for a warrantless misdemeanor arrest. (App. 24).
7

(App. 12-13) (Court’s emphasis). See also R.30, TR Hrng., at 76-77. The court
concluded, “Parrish’s testimony makes clear that Parrish believed a crime to have
just taken place, and Jones had committed it—not that a crime was ongoing, and
Jones was committing it.” (App. 13). Thus, the motion to reconsider was denied. Id.
The Sixth Circuit held that the Fourth Amendment does not bar “investigatory
stops prompted by a completed misdemeanor.” United States v. Jones, 953 F.3d 433,
434 (6th Cir. 2020) (App. 2). The court found its ruling was supported by Hensley.
The Court held in Hensley, 469 U.S. at 229, that “if police have a reasonable
suspicion, grounded in specific and articulable facts, that a person they encounter
was involved in or is wanted in connection with a completed felony, then a Terry [v.
Ohio, 392 U.S. 1 (1968)] stop may be made to investigate that suspicion.” (Emphasis
added). The Sixth Circuit acknowledged that Hensley left open the question whether
“Terry stops to investigate all past crimes, however serious, are permitted.” Jones,
953 F.3d at 436 (App. 4) citing Hensley, 469 U.S. at 229. The court noted that other
courts of appeals “follow the Hensley facts-and-circumstances test in considering
the misdemeanor side of the problem.” Jones, 953 F.3d at 436 (App. 4-5). See United
States v. Hughes, 517 F.3d 1013, 1017–18 (8th Cir. 2008); United States v. Grigg,
498 F.3d 1070, 1076–77, 1081 (9th Cir. 2007); United States v. Moran, 503 F.3d
1135, 1141–43 (10th Cir. 2007).

8

The Sixth Circuit eschewed Hensley’s bright-line test in part because of what
it characterized as “the elusive and evolving nature of the felony-misdemeanor
distinction and its disappearance in some instances.” Jones, 953 F.3d at 436 (App.
5). The court was concerned that the line between felony and misdemeanor offenses
has become blurred and it could be difficult for police to distinguish between them
in deciding whether to make a stop. “Today, serious crimes are usually felonies, but
not always.” Id. at 436 (App. 5). In the court’s view:
The better rule in this setting is not bright in either direction. It
does not say that officers always may make a Terry stop of an individual
known to have completed a misdemeanor, as Hensley permits for
completed felonies. And it does not say that officers never may make a
Terry stop of an individual known to have completed a misdemeanor.
It instead falls back on reasonableness, balancing the interests in public
safety and personal liberty. The inquiry turns not on whether the suspect
already completed a crime. It turns on the nature of the crime, how long
ago the suspect committed it, and the ongoing risk of the individual to
the public safety.
Jones, 953 F.3d at 437 (App. 6).
The Sixth Circuit cited several factors to balance the security and liberty
interests involved in the stop: 1) Does the stop promote the interest of crime
prevention? 2) Does it further public safety? How strong is the government’s interest
in solving crimes and bringing offenders to justice; and 3) would restraining police
action until after probable cause is obtained unnecessarily hinder the investigation
or allow a suspect to flee in the interim? Jones, 953 F.3d at 437-38 (App. 6) quoting
Hensley, 469 U.S. at 228-29 (internal quotation marks omitted). Based on those
9

considerations, the Sixth Circuit concluded that the stop did not violate the Fourth
Amendment. Id. at 438 (App. 6-7).
REASONS FOR GRANTING THE PETITION
Reasonable suspicion of a completed misdemeanor is not sufficient
under the Fourth Amendment to justify an investigatory stop of a
vehicle when there is no evidence that any occupant of the vehicle
was then committing or was about to commit a crime.
The Fourth Amendment allows “brief investigative stops” when “a law
enforcement officer has ‘a particularized and objective basis for suspecting the
particular person stopped of criminal activity.’” Navarette v. California, 572 U.S.
393, 396–97 (2014) quoting United States v. Cortez, 449 U.S. 411, 417–418 (1981)
and citing Terry v. Ohio, 392 U.S. 1, 21–22 (1968). “An investigatory stop must be
justified by some objective manifestation that the person stopped is, or is about to
be, engaged in criminal activity.” Cortez, 449 U.S. at 417.
Reasonable suspicion requires “some minimal level of objective justification”
for making an investigatory stop. United States v. Sokolow, 490 U.S. 1, 7 (1989)
(citations and internal quotation marks omitted). It must be supported by “articulable
facts that criminal activity may be afoot.” Id. Although reasonable suspicion is less
than the level of suspicion necessary for probable cause, it must “be something more
than an inchoate and unparticularized suspicion or hunch.” Id. “The ‘reasonable
suspicion’ necessary to justify such a stop ‘is dependent upon both the content of

10

information possessed by police and its degree of reliability.’” Navarette, 572 U.S.
at 397 quoting Alabama v. White, 496 U.S. 325, 330 (1990).
“[I]f police have a reasonable suspicion, grounded in specific and articulable
facts, that a person they encounter was involved in or is wanted in connection with
a completed felony, then a Terry stop may be made to investigate that suspicion.”
Hensley, 469 U.S. at 229 (emphasis added). As previously noted, the Court did not
decide in Hensley, 469 U.S. at 229, “whether Terry stops to investigate all past
crimes, however serious, are permitted.” As the district court succinctly put it here,
“Hensley is restricted to felonies—it does not extend to misdemeanors.” (App. 22)
citing Hensley, 469 U.S. at 229. In the instant case, however, the Sixth Circuit has
extended Hensley to completed misdemeanors.
In Hensley, 469 U.S. at 223, “a wanted flyer” was circulated to multiple police
departments. They were advised that Hensley was wanted for investigation of an
aggravated robbery. The flyer also warned that Hensley should be considered armed
and dangerous. Id. Police eventually stopped Hensley’s vehicle on the basis of the
warrant. He was arrested after two guns were found in the vehicle. Id. at 223-25.
This Court upheld the vehicle stop and seizure of the guns. Hensley, 469 U.S.
at 226, 236. The Court noted that its prior opinions “have suggested that some
investigative stops based on a reasonable suspicion of past criminal activity could
withstand Fourth Amendment scrutiny.” Hensley, 469 U.S. at 227 citing e.g., United
11

States v. Cortez, 449 U.S. at 417, n. 2 and United States v. Place, 462 U.S. 696, 702
(1983) (other citations omitted). Such cases “suggest that the police are not
automatically shorn of authority to stop a suspect in the absence of probable cause
merely because the criminal has completed his crime and escaped from the scene.”
Hensley, 469 U.S. at 228.
To identify the limits on stops to investigate past criminal activity, the Court
applied the same test
used to identify the proper bounds of intrusions that further
investigations of imminent or ongoing crimes. That test, which is
grounded in the standard of reasonableness embodied in the Fourth
Amendment, balances the nature and quality of the intrusion on
personal security against the importance of the governmental interests
alleged to justify the intrusion.
Hensley, 469 U.S. at 228. Applying that balancing test to investigatory stops of past
crimes, the Court concluded that probable cause to arrest is not always required. Id.
In the instant case, the Sixth Circuit has extended Hensley’s holding to
completed misdemeanors. But the reasons the court offered to reject Hensley’s
bright-line test are unpersuasive and will not only lead to more litigation on
suppression issues but also fail to provide the clarity needed by police to comply
with the Fourth Amendments requirements on investigatory stops.4 One concern

4

The Sixth Circuit has previously held that police may make an investigatory stop
when they have reasonable suspicion of an ongoing crime whether it be a felony or
misdemeanor. United States v. Simpson, 520 F.3d 531, 539, 541 (6th Cir. 2008)
citing Gaddis v. Redford Twp., 364 F.3d 763, 771 n.6 (6th Cir. 2004). See also
12

expressed by the Sixth Circuit is what it characterized as “the elusive and evolving
nature of the felony-misdemeanor distinction and its disappearance in some
instances.” Jones, 953 F.3d at 436 (App. 5). Essentially the court is saying that
distinction between felonies and misdemeanors has become so blurred that police
officers cannot be expected to know the difference. Petitioner’s case, however,
shows the flaw in that justification for expanding Hensley’s holding because under
Kentucky law felony and misdemeanor assault are easily distinguished.
First degree assault requires the infliction of serious physical injury (among
other elements). See Ky.Rev.Stat. (KRS) §508.010(1)(a) and (b). Second degree
assault also requires serious physical injury, KRS §508.020(1)(a) and (c) or the
intentional infliction of physical injury “by means of a deadly weapon or a dangerous
instrument.” See KRS §508.020(1)(b). Third degree assault involves conduct against
designated groups of persons, e.g., peace officers, firefighters, employees of
detention facilities, or EMS personnel. See KRS §508.025(1)(a)(1), (1)(a)(2),
(1)(a)(4), and (1)(a)(5). Those three offenses are felonies.
A person is guilty of fourth degree assault – a misdemeanor – when he
“intentionally or wantonly causes physical injury to another person; or …With

United States v. Roberts, 986 F.2d 1026, 1030 (6th Cir. 1993). In petitioner’s case,
the Sixth Circuit noted that Gaddis, 364 F.3d at 771 n.6 and Roberts, 986 F.2d at
1030, said in dicta that police may not conduct a Terry stop to investigate a
completed misdemeanor. Jones, 953 F.3d at 438 (App. 7).
13

recklessness he causes physical injury to another person by means of a deadly
weapon or a dangerous instrument.” See KRS §508.030(1)(a) and (b). Ms.
McKinney told Officer Parrish that petitioner hit her in the back with a plastic bottle
of dish washing liquid. Ms. McKinney showed Officer Parrish where she was struck
but he did not see any injury at that time. Thus, the circumstances presented a case
of fourth degree assault. That misdemeanor was a completed offense when Ms.
McKinney was struck by the bottle. Kentucky law allows peace officers to make a
warrantless arrest for a misdemeanor only if it is committed in the officer’s presence.
See KRS §431.005(1)(d).5 Officer Parrish was obviously aware of the law because
he advised Ms. McKinney about pressing charges and obtaining an Emergency
Protective Order. See Statement of the Case, p. 4.
As Officer Parrish prepared to leave Ms. McKinney’s house in his patrol car,
he saw a white Chevy Suburban with two, black male occupants. (R.30, TR. Hrng.,
at 71, 77). Officer Parrish explained, “I got behind that vehicle and initiated a traffic

5

KRS §431.005 states in relevant part: “(1) A peace officer may make an arrest …
(d) Without a warrant when a misdemeanor, as defined in KRS 431.060, has been
committed in his or her presence[.]” KRS 431.060(2) provides that a misdemeanor
is an offense “punishable by confinement other than in the penitentiary[.]”
There is an exception to KRS §431.005(1)(d). See KRS §431.005(2)(a)
which states: “Any peace officer may arrest a person without warrant when the
peace officer has probable cause to believe that the person has intentionally or
wantonly caused physical injury to a family member, member of an unmarried
couple, or another person with whom the person was or is in a dating relationship.”

14

stop to further investigate the allegations made by Ms. McKinney.” Id. (Emphasis
added). As shown in the Statement of the Case (pp. 7-8), Officer Parrish did not stop
petitioner to investigate an ongoing crime. (App. 11). His testimony showed that he
made the traffic stop “to investigate [Ms.] McKinney’s allegations of the completed
domestic violence that had occurred earlier that day[.]” Id. at 12. Moreover, Officer
Parrish’s testimony shows that he did not believe that he had probable cause to make
a warrantless arrest under KRS §431.005(2)(a) because he “initiated a traffic stop to
further investigate the allegations made by Ms. McKinney.” (R.30, TR Hrng. at 71).
Officer Parrish was well aware of the distinction between felony assault and
misdemeanor assault. His recognition of the difference between those offenses is
manifested in the Uniform Citation (Government Exhibit (GEX) 1) he completed in
connection with his investigation. The citation clearly reflects that petitioner was
charged with fourth degree assault – a misdemeanor – on August 30, 2017.” (R.30,
TR Hrng. at 74, 76; App. 26). The facts here show that the Sixth Circuit’s concern
about the difficulty police officers might have in distinguishing a felony from a
misdemeanor for purposes of a Hensley stop is greatly exaggerated.
Hensley established a bright-line test that police officers can easily apply. That
test should not be expanded because, as discussed below, extending it to a completed
misdemeanor will obliterate any limits on making investigatory stops and will result
in more litigation not only on the validity of the stop but also on the evidence
15

supporting the underlying offense. Under the Sixth Circuit’s approach, where would
the line be drawn between valid and invalid investigatory stops? The line has already
been drawn in Hensley and should be maintained because it can easily be followed
and applied by law enforcement officers. Beyond that, the Sixth Circuit has not
offered sufficient reasons to abandon it. If Hensley is extended to completed
misdemeanors, does that mean an investigatory stop can be made if the police have
a reasonable suspicion that a vehicle’s occupant has committed any completed
misdemeanor such as non-support (KRS §530.050) or trespass (KRS §511.060)?
Under the Sixth Circuit’s approach there are no limits on a police officer’s
ability to make an investigatory stop based on reasonable suspicion that the occupant
of a vehicle has committed a completed misdemeanor. Any misdemeanor can be the
basis of an investigatory stop. The Sixth Circuit’s approach thus expands Hensley’s
reach to encompass all misdemeanors.
The Court noted in Hensley, 469 U.S. at 228, that
the factors in the balance may be somewhat different when a stop to
investigate past criminal activity is involved rather than a stop to
investigate ongoing criminal conduct. This is because the governmental
interests and the nature of the intrusions involved in the two situations
may differ.
The Sixth Circuit concluded from the factors in Hensley’s balancing test that the
investigatory stop in petitioner’s case did not violate the Fourth Amendment. Jones,
953 F.3d at 437-38 (App. 6). The Sixth Circuit, however, does not appear to have
16

taken into account the difference between an investigatory stop for a completed
crime and a stop involving ongoing criminal activity. As the Court observed in
Hensley, 469 U.S. at 228,
A stop to investigate an already completed crime does not necessarily
promote the interest of crime prevention as directly as a stop to
investigate suspected ongoing criminal activity. Similarly, the exigent
circumstances which require a police officer to step in before a crime is
committed or completed are not necessarily as pressing long
afterwards.
The same considerations apply to public safety and “the strong government’s
interest in solving crimes and bringing offender to justice.” Id. at 229. Those factors
are weightier when the defendant is suspected of having committed a felony. Given
the serious nature of felony offenses, the Hensley factors are well suited to ensure
that an investigatory stop for a completed felony comports with the Fourth
Amendment. But, as shown above, the objectives of an investigatory stop for a
completed felony are not necessarily applicable to a completed misdemeanor.
To support its ruling, the Sixth Circuit cited decisions from other courts of
appeals that have addressed “the Hensley facts-and-circumstances test in considering
the misdemeanor side of the problem.” Jones, 953 F.3d at 436. See United States v.
Hughes, 517 F.3d at 1017–18; United States v. Grigg, 498 F.3d at 1076–77, 1081;
United States v. Moran, 503 F.3d at 1141-43. Those decisions, however, underscore
the burden imposed on lower courts if Hensley’s holding is extended to completed
misdemeanors.
17

In Moran, police received a complaint that the defendant was trespassing on
private land. When the defendant’s vehicle was stopped later that day, he told the
officer that he had been bow hunting. In addition to the bow and arrows in the
vehicle, the officer saw a rifle that the defendant said belonged to his girlfriend. The
defendant was charged with being a felon in possession of a firearm. 503 F.3d at
1138-39. In a motion to suppress, the defendant argued that the stop was
unconstitutional because the “police may stop an individual based on suspicion of
past criminal activity only when the crime at issue is a felony offense” and here “the
officers were investigating a completed misdemeanor[.]” Id. at 1140.
The Tenth Circuit upheld the stop. The court found that the circumstances
“implicate a strong governmental interest in solving crime and bringing offenders to
justice because the alleged underlying criminal activity posed an ongoing risk to
public safety.” Moran, 503 F.3d at 1142. The court noted that there had been an
“alleged history of confrontation and threats, combined with the specific nature of
the trespass (i.e., for the purpose of hunting) and the likelihood that the alleged
criminal activity would recur, created a situation ‘involving a threat to public
safety[.]’” Id. quoting Hensley, 469 U.S. at 229. Thus, ‘“it is in the public interest
that the crime be solved and the suspect detained as promptly as possible.’” Id. But
the court did not articulate a broad rule of law. “[W]e stress the limited and factdependent nature of our holding. We do not suggest that all investigatory stops based
18

on completed misdemeanors are reasonable or even that any stop based on a
completed criminal trespass is per se reasonable.” Moran, 503 F.3d at 1143.
In Hughes, 517 F.3d at 1015, the police received an anonymous complaint
that “suspicious parties” were on the property of an apartment complex which was
“in a high crime area[.]” The parties were described as two black males. The officer
who responded, saw the defendant, “another male, and a female standing a few feet
from a bus stop across the street from the apartment complex.” Id. He stopped the
three people and questioned what they were doing. He frisked them and found
several live rounds of ammunition in one of the defendant’s pockets. Id. The
defendant was charged with being a felon in possession of ammunition. Id. “The
district court found reasonable suspicion to justify a Terry stop because: (1) the area
was a high crime area, and (2) Hughes matched the description given by dispatch.”
Id. at 1016.
The Eighth Circuit reversed the order denying the defendant’s motion to
suppress. Hughes, 517 F.3d at 1016. There were no facts to “support a reasonable
suspicion that a crime was currently taking, or about to take, place.” Id. To justify
the stop, “the officer must have been investigating a past crime but the dispatch “did
not provide any details regarding what was suspicious about these parties other than
that they were trespassing” which is a misdemeanor. Id. at 1017.

19

The Eighth Circuit “decline[d] to adopt a per se rule that police may never
stop an individual to investigate a completed misdemeanor.” Hughes, 517 F.3d at
1017. The court explained that “the reasonableness of such seizures depends on a
balance between the public interest and the individual’s right to personal security
free from arbitrary interference by law officers.” Id. (citation and internal quotation
marks omitted). “Under this test, the nature of the misdemeanor and potential threats
to citizens’ safety are important factors.” Id. “On the facts here, the governmental
interest in investigating a previous trespass does not outweigh [the defendant’s]
personal interest.” Id. at 1018. “There may be cases where a Terry stop is justified
to investigate [a] completed trespass, such as where there is a strong threat to public
safety,” but the facts here did not indicate “such a threat.” Id.
The police in Grigg, 498 F.3d at 1072-73, stopped the defendant’s vehicle
after receiving a complaint that he “had been playing his car stereo at an excessive
volume earlier in the day.” The defendant was charged with having “an unregistered
automatic firearm” that was discovered by police during the investigatory stop.
Relying on Hensley, the district court denied Grigg’s motion to suppress. Id. at 1074.
In reversing the denial of the suppression motion, the Ninth Circuit noted that
state court cases were split on Hensley’s reach “with the decisive issue being the
dangerous nature of the underlying misdemeanor that gave rise to the Terry stop.”

20

Grigg, 498 F.3d at 1078 (citing cases). Those cases were “instructive because they
illuminate the rule we derive from Hensley that a court reviewing the reasonableness
of an investigative stop must consider the nature of the offense, with particular
attention to any inherent threat to public safety associated with the suspected past
violation.” Grigg, 498 F.3d at 1079–80.
The Ninth Circuit noted that the distinction between felonies and
misdemeanors “amounts to a legislative recognition that the public concerns served
by warrantless misdemeanor arrests are in some degree outweighed by concerns for
personal security and liberty.” Grigg, 498 F.3d at 1080 (citation and internal
quotation marks omitted). Thus, in the context of a Terry stop for a completed
misdemeanor a court “should tend to give primary weight to a suspect’s interests in
personal security, while considering the law enforcement’s interest in the immediate
detention of a suspect is not paramount.” Id. The court declined
to adopt a per se standard that police may not conduct a Terry stop to
investigate a person in connection with a past completed misdemeanor
simply because of the formal classification of the offense. We think it
depends on the nature of the misdemeanor.
Id. at 1081. Consequently, the court adopted
the rule that a reviewing court must consider the nature of the
misdemeanor offense in question, with particular attention to the
potential for ongoing or repeated danger (e.g., drunken and/or reckless
driving), and any risk of escalation (e.g., disorderly conduct, assault,
domestic violence).

21

Id. Applying that rule the court concluded that the investigatory stop was not
reasonable because playing a car stereo too loud is “exceedingly harmless past
misdemeanor conduct.” Id.
As the Sixth Circuit noted, applying Hensley’s facts-and-circumstances test
“sometimes comes out on the side of the government” (Moran), “sometimes on the
side of the defendant” (Grigg and Hughes). Jones, 953 F.3d at 436 (App. 4-5). That
observation, however, is a reason to maintain Hensley’s bright-line rule. The Sixth
Circuit has expanded Hensley to reach all misdemeanors. That approach is
overbroad. But even if Hensley is limited to completed misdemeanors that are a
“threat to public safety.” How will that be determined?
Under Kentucky law, for example, there are misdemeanor drug offenses
(trafficking in a controlled substance in the third degree – KRS §218A.1414(1) and
(2)(a)(1) and (b)(1); misdemeanor sex offenses (e.g., sexual abuse in the second
degree – KRS §510.120(3), indecent exposure – KRS §510.148(2)(a) and (b); KRS
§510.150.150(2); assault related misdemeanors (terroristic threatening in the third
degree – KRS §508.080(2), criminal abuse in the third degree – KRS §508.120(2);
and inchoate misdemeanor offenses such as attempt (KRS §506.010(4)(d) and (e)).
Following the Sixth Circuit’s broad approach, which allows an investigatory
stop for any completed misdemeanor, will lead courts and law enforcement officers
down a slippery slope if they have to categorize the types of misdemeanors that
22

justify an investigatory stop. That can lead to inconsistent results. Determining
whether a misdemeanor is a serious offense or a “threat to public safety” is akin to
using the categorical approach6 or modified categorical approach7 to determine
whether an offense is a “crime of violence”8 or a “violent felony.”9 That could lead
to increasing litigation to determine if the misdemeanor in question is categorically
a “threat to public safety” All of which illustrates why Hensley’s bright-line rule
should not be extended to completed misdemeanors.
As a final matter the Sixth Circuit found that Officer Parrish had probable
cause to arrest petitioner for fourth degree assault. Jones, 593 F.3d 438-39. (App. 78). The evidence, however, does not support that conclusion because it does not
show that Ms. McKinney sustained an injury that falls within the scope of the fourth
degree assault statute KRS §508.030(1)(a). (See p. 14, supra.).
“Physical injury” is defined as “substantial physical pain or any impairment
of physical condition[.]” See KRS §500.080(13). Ms. McKinney did not call the
police because she had been injured but because she could not get petitioner to leave
her residence. (R.32, DEX 2, Body Camera 1234 at 00:01:05-38). She told Officer
Parrish that petitioner threw a plastic bottle of dishwashing liquid that burst open

6

Taylor v. United States, 495 U.S. 575, 577 (1990).
Shepard v. United States, 544 U.S. 13, 26 (2005); Mathis v. United States, 136
S.Ct. 2243, 2249 (2016).
8
See e.g., 18 U.S.C. §16.
9
See e.g., 18 U.S.C. §924(e)(2)(B).
23
7

when it hit her in the back. She lifted her shirt to show the officer where the bottle
struck her and complained of back pain. The bottle was found in her front yard.
(R.30, TR Hrng., Page ID# 68-69, 72-73, 80-82; R.32, DEX 2, Body Camera 1236
at 00:01:40-00:03:15, 00:27:05-25).
Officer Parrish did not see any indication that Ms. McKinney was injured. He
did not call for an ambulance or have her medically examined. (R.30, TR Hrng.,
Page ID# 81-82). That suggests he did not believe that she was injured. Officer
Parrish did not see any bruising or signs of trauma. Id. at 82; R.32, DEX 2, Body
Camera 1236 at 00:27:05-25. He noted on the Uniform Citation (GEX 1) (App. 26)
that there was no visible injury to Ms. McKinney. (R.30, TR Hrng., Page ID# 87).
Officer Parrish explained that if Ms. McKinney wanted to pursue criminal
charges, she would have to follow a process and go downtown to do it. Id. at
00:14:30-00:15:40. If he believed that there was sufficient probable cause to justify
a warrantless arrest of petitioner, he would not have told Ms. McKinney that she
would have to swear out a warrant.
Furthermore, when Officer Parrish saw the vehicle with two black males in it,
he “initiated a traffic stop to further investigate the allegations made by Ms.
McKinney.” (R.30, TR Hrng., Page ID# 71). The intent to further investigate
indicates that he did not believe he had probable cause to arrest petitioner. Moreover,
there was nothing that occurred after the stop that provided additional information
24

to establish probable cause. Petitioner did not admit to criminal conduct and there
was no evidence that he was engaged in criminal activity when the stop was made.
The circumstances do not support a finding that Ms. McKinney sustained a physical
injury for purposes of fourth degree assault. Officer Parrish did not have probable
cause to arrest petitioner for that misdemeanor offense.
Petitioner respectfully submits that his case is appropriate for a grant of
certiorari because it specifically addresses the question left open in Hensley, 469
U.S. at 229, i.e., “if the police have a reasonable suspicion, grounded in specific and
articulable facts, that a person they encounter was involved in or is wanted in
connection with a completed [misdemeanor], then a Terry stop may be made to
investigate that suspicion.” Moreover, the facts and circumstances surrounding
petitioner’s case are simple and clearly frame the backdrop for answering the
question presented. Hensley’s holding presents a clear and straightforward principle
of law that is easily followed and applied by law enforcement officers. The Sixth
Circuit’s expansion of that holding should be rejected by this Court because it will
yield inconsistent results and unnecessary litigation in district courts.

25

CONCLUSION
For the foregoing reasons, the Court should grant this petition.
Respectfully submitted,
___________________
Frank W. Heft, Jr.
Counsel of Record
Scott T. Wendelsdorf
Office of the Federal Defender
200 Theatre Building
629 Fourth Avenue
Louisville, Kentucky 40202
(502) 584-0525
Frank_Heft@fd.org
Counsel for Petitioner

26

